fi

Q@OCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-439

CTIA — THE WIRELESS ASSOCIATION,
Petitioner,
v.
CITY OF BERKELEY, CALIFORNIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3 1st day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE INSTITUTE FOR JUSTICE AND
NATIONAL FEDERATION OF INDEPENDENT BUSINESS IN SUPPORT OF PETITIONER in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JUSTIN M. PEARSON* PAUL M. SHERMAN
INSTITUTE FOR JUSTICE INSTITUTE FOR JUSTICE
2 S. Biscayne Boulevard, 901N. Glebe Road,
Suite 3180 Suite 900
Miami, FL 33131 Arlington, VA 22203
(305) 721-1600 (703) 682-9320
jpearson@ij.org psherman@ijorg
*Counsel of Record Counsel for Amici Curiae

Subscribed and sworn to before me this 3 1st day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . . f
State of Nebraska . Le &.
My Commission Expires Nov 24, 2020 :

Notary Public Affiant

 

 

38909
 

Case No. 19-439
CTIA ~ The Wireless Association, Petitioner
v.

City of Berkeley, California, et al., Respondents

 

 

 

Counsel for Petitioner: Counsel for Respondents:
Theodore B. Olson Lawrence Lessig

GiBSON DUNN & CRUTCHER LLP HARVARD Law SCHOOL

1050 Connecticut Avenue, NW 1563 Massachusetts Avenue
Washington, DC 20036 Cambridge, MA 02138

Tel: (202) 955-8668 Tel: (617) 496-8853

Email: tolson@gibsondunn.com Email: lessig@law.harvard.edu

 

 
